CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA PLATINUM AND VISA PLATINUM SECURED
AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR VISA
PLATINUM AND VISA PLATINUM SECURED CREDIT CARDS, AND/OR ANY OTHER ACCOUNT
ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US
AT ONCE IF ANY PARTS ARE UNCLEAR.

st

1521 1 Avenue South, Ste. 500
Seattle, WA 98134-1471
(206) 398-5500 ● (800) 334-2489

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

6.99
- 17.99
__________%

VISA Platinum:
This APR will vary with the market based on the Prime Rate.

__________%
6.99
- 17.99

VISA Platinum Secured:
This APR will vary with the market based on the Prime Rate.
APR For Balance Transfers

6.99 - 17.99

VISA Platinum: ________________%
This APR will vary with the market based on the Prime Rate.

6.99 - 17.99

VISA Platinum Secured: ________________%
This APR will vary with the market based on the Prime Rate.
APR For Cash Advances

6.99 - 17.99

VISA Platinum: ________________%
This APR will vary with the market based on the Prime Rate.

6.99 - 17.99

VISA Platinum Secured: ________________%
This APR will vary with the market based on the Prime Rate.
Penalty APR And When it
Applies

17.99
________%
This APR may be applied to Your Account if You:
1) Make a late payment.
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason,
the Penalty APR will apply indefinitely unless 6 consecutive payments are received on
or before the due date.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
 Cash Advance
 Foreign Transaction

3.00% of each cash advance ($10.00 minimum)
1.00% of each foreign currency transaction in U.S. dollars.
0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees



Returned Payment
Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Copyright Oak Tree Business Systems, Inc., 2013-2017. All Rights Reserved.

Page 1 of 4

OTBS 016CC SEAT (5/17)

DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our," and "Credit Union" mean SEATTLE METROPOLITAN CREDIT UNION dba SEATTLE CREDIT
UNION (“SEATTLE CREDIT UNION”). The words "You" and "Your" mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the
plural. The words "Card" and "Credit Card" mean any VISA Platinum or VISA Platinum Secured Credit Card issued to You by Us an d any duplicates or renewals. The word
"Account" means the VISA Platinum or VISA Platinum Secured Credit Card Account established for You under this Agreement. "Convenience Check" means the special
Account access devices that We may provide for Your use from time to time. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. You may request advances on Your Ac count through a
variety of means which could include (but may not be limited to) telephonic requests, Convenience Checks, Credit Cards and the like. Regardless of the means by which
any advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your A ccount, with actual, apparent or
implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.

Variable Rate
Margin

Index

Monthly Periodic
Rate

Annual Percentage
Rate

VISA Platinum

3.74-14.74
________

3.25
________

0.583
- 1.499
______________%

6.99
- 17.99
______________%

VISA Platinum Secured

3.74-14.74
________

3.25
________

0.583
- 1.499
______________%

6.99
- 17.99
______________%

Credit Card

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but
not limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
SECURITY. Collateral (other than household goods or any dwelling) given as
security under any other loan You may have with Us will secure all amounts You
owe Us now and in the future if that status is reflected in the "Truth-in-Lending
Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends
due or to become due to You from Us to the extent You owe on any unpaid
Credit Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a VISA Platinum
Secured Credit Card, You agree to give Us a specific pledge of shares which will
equal Your Credit Limit. In the event that You default on Your Account, We may
apply these shares toward the repayment of any amount owed on Your VISA
Platinum Secured Credit Card. You may cancel Your VISA Platinum Secured
Credit Card at any time by paying any amounts owed on such Account. To be
certain that Your entire balance and all advances are paid, any shares pledged
may not be available to You for 30 days after You have cancelled and any
outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
which You are approved. Unless You are in default, the Credit Limits established
for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit available
during any time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the primary Borrower
at the address that We have on file for You. We may refuse to follow any
instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the
right to repay at any time without penalty. You also understand that You will only
be charged periodic Finance Charges to the date You repay Your entire
balance. You may make larger payments without penalty. Any partial payment or
prepayment will not delay Your next scheduled payment. All payments to Us
must be in lawful money of the United States. Except as required by law, We
may apply payments at Our discretion. Any unpaid portion of the Finance
Charge will be paid by subsequent payments and will not be added to Your
principal balance. You understand that any delay in the repayment of Your
unpaid balance will increase Your periodic Finance Charges and any
acceleration in the repayment of Your unpaid balance will decrease Your
periodic Finance Charges.
Minimum Payments will be an amount equal to 3.00% of Your new unpaid Account
balance at the end of each billing cycle, subject to the lesser of $25.00 or Your
Copyright Oak Tree Business Systems, Inc., 2013-2017. All Rights Reserved.

balance, plus any portion of the Minimum Payments shown on prior statement(s)
which remains unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily
transactions balances outstanding during the month (including new
transactions). To get the average daily balance, We take the beginning balance
of Your Account each day, add any new purchases, balance transfers, cash
advances, insurance premiums, debit adjustments or other charges and
subtract any payments, credits and unpaid Finance Charges. This gives Us the
daily balance. Then, We add up all the daily balances for the billing cycle and
divide them by the number of days in the billing cycle. The Finance Charge for a
billing cycle is computed by multiplying the average daily balance subject to a
Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the
later of the date they are posted to Your Account or from the first day of the billing
cycle in which the transaction is posted to Your Account.
VARIABLE RATE. All advances are subject to a Variable Rate which is based on
the highest Prime Rate as published in the Money Rates section in effect on the
15th calendar day of each month ("Index") plus Our Margin. The Index plus the
Margin equals the Interest Rate. Changes in the Index will cause changes in the
Interest Rate on the 1st day of the billing cycle that immediately follows a change in
the Index. Increases or decreases in the Interest Rate will cause like increases or
decreases in the Finance Charge and will affect the number of Your regularly
scheduled payments. Subject to applicable law, there is no limit to the amount Your
interest rate may change.
PENALTY RATE. If Your Account is more than 60 days past due, subject to
applicable law, the Monthly Periodic Rate applicable to Your entire balance of
transactions existing at that time will increase to a fixed periodic rate of
1.499
________
% (corresponding ANNUAL PERCENTAGE RATE 17.99
________%). During
the six month period following the effective date of such increase, upon receipt of
the first six consecutive required minimum periodic payments when due, the rate
applicable to the entire balance of transactions will be returned to the standard rate
that would have otherwise been in effect.
LATE CHARGE. If Your payment is 1 or more days late, You will be charged the
lesser of: (a) $25.00; or (b) the amount of the minimum payment due.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of
rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. For transactions
that are initiated in a foreign currency, You will be charged 1.00% of the final
settlement amount. For transactions occurring in foreign countries and initiated in
U.S. Dollars, You will be charged 0.80% of the final settlement amount.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) the lesser of $25.00 or the required minimum
payment amount for the returned payment for any check (or other negotiable

Page 2 of 4

OTBS 016CC SEAT (5/17)

instrument used for payment) which is returned unpaid; (b) a cash advance fee
FINANCE CHARGE equal to the greater of $10.00 or 3.00% of each advance; (c) a
convenience check fee FINANCE CHARGE equal to the greater of $10.00 or 3.00% of
any advance obtained through the use of a convenience check; (d) $5.00 for each
replacement Card You request; (e) $20.00 each time You request a Card be
delivered to one of Our branch locations; and (f) $25.00 each time You request that
a Card or PIN be delivered on an expedited basis.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
Checks have been reported lost or stolen; (3) Your Account has been cancelled or
has expired; or (4) Your Account has not been activated. If a postdated Convenience
Check is paid and, as a result, any other Convenience Check is returned unpaid,
We are not responsible for any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon
will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of every Feature Category of Your Account immediately
due and payable, without prior notice or demand
COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all court
costs, private process server fees, investigation fees or other costs incurred in
collection and reasonable attorneys’ fees incurred in the course of collecting any
amounts owed under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is determined
to be unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect to
do so, You will be given the necessary disclosures and documents separately.

from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account at any time, whether
or not You are in default. You will, in any case, remain liable to pay any unpaid
balances according to the terms of Your Account.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or
other slips You may sign or receive when using Your Card contain terms, this
Agreement is the contract which solely applies to all transactions involving
the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (855) 609-3580 or by
writing to Us at 1521 1 st Avenue South, Ste. 500, Seattle, WA 98134. In any case,
Your liability will not exceed $50.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the
Cards or Convenience Checks, or electronic terminals to honor the Cards or complete
a Card withdrawal, or for their retention of the Cards or Convenience Checks.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with
the statement.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at (855) 609-3580 or write to
Us at 1521 1st Avenue South, Ste. 500, Seattle, WA 98134.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your share
account after 6 months.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Washington, except to the extent that such laws are inconsistent with
controlling federal law.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give us the following information:

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure – Federal Truth-In-Lending Act," which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
and Disclosure.





CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device; or
by authorizing another to use Your Account, You agree to and accept its terms.

You must contact Us:

UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
Copyright Oak Tree Business Systems, Inc., 2013-2017. All Rights Reserved.




Page 3 of 4

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

OTBS 016CC SEAT (5/17)

You must notify Us of any potential errors in writing. You may call Us, but if
You do We are not required to investigate any potential errors and You may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1)
2)

Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:






We cannot try to collect the amount in question, or report You as delinquent
on that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

If You receive Our explanation but still believe Your bill is wrong, You must write
to Us within 10 days telling Us that You still refuse to pay. If You do so, W e
cannot report You as delinquent without also reporting that You are questioning
Your bill. We must tell You the name of anyone to whom we reported You as
delinquent, and We must let those organizations know when the matter has
been settled between Us. If We do not follow all of the rules above, You do not
have to pay the first $50.00 of the amount You question even if Your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:

1)

2)

After We finish Our investigation, one of two things will happen:





If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.

Copyright Oak Tree Business Systems, Inc., 2013-2017. All Rights Reserved.

3)

The purchase must have been made in Your home state or within 100 miles
of Your current mailing address, and the purchase price must have been
more than $50.00. (Note: Neither of these are necessary if Your purchase
was based on an advertisement We mailed to You, or if We own the
company that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses Your Credit
Card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point, if
We think You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016CC SEAT (5/17)

